       OFFICE OF INSPECTOR GENERAL

                                 Catalyst for Improving the Environment



Memorandum Report




        Survey Results on Information
        Used by Water Utilities to
        Conduct Vulnerability
        Assessments


        Report No. 2004-M-0001


        November 21, 2003
Abbreviations

AWWA         American Water Works Association

CDC          Centers for Disease Control and Prevention

DHS          Department of Homeland Security

DWG          Domestic Working Group

EPA          Environmental Protection Agency

FBI          Federal Bureau of Investigation

Water-ISAC Water Information Sharing and Analysis Center

NRWA         National Rural Water Association

SCADA        Supervisory Control and Data Acquisition
                             UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                          WASHINGTON, D.C. 20460


                                                                                                       OFFICE OF
                                                                                                  INSPECTOR GENERAL




                                              November 21, 2003


MEMORANDUM


SUBJECT:          Survey Results on Information Used by Water Utilities to Conduct Vulnerability
                  Assessments

FROM:             Jeffrey K. Harris
                  Director for Program Evaluation, Cross-Media Issues

TO:               Tracy Mehan
                  Assistant Administrator for Office of Water


Recent terrorist activities and incidents such as the blackout in the midwest and northeast United
States have demonstrated the crucial role of water sector infrastructures in the health and
economic well-being of the Nation. The Environmental Protection Agency (EPA) is the lead
Federal agency for safe drinking water and for protecting the infrastructure that supplies the
water. While EPA has made efforts to prepare water utilities for dealing with terrorist activities,
the goal of a secure water supply needs the participation and coordination of water utilities with
local, State, and Federal agencies.

Recognizing that Federal, State and local levels of government have a vested interest in water
security, we suggested that the Domestic Working Group (DWG)1, an informal group of local,
State, and Federal auditors, develop a survey focusing on the security needs and tools of their
local water systems. The objective of the survey was to gather feedback on the usefulness of
water security information provided to utilities by EPA and other sources. Specifically, the
survey helped determine the following:

‚        Did EPA and other Federal, State, and local agencies provide useful threat and risk
         information to water utilities to conduct vulnerability assessments as required by the
         Public Health Security and Bioterrorism Preparedness and Response Act of 2002
         (“Bioterrorism Act”)?


         1
          Individual DWG members volunteer to work on issues of common interest. Each organization conducts
work individually that forms the foundation for specific organization audits that can be compiled to support a more
generalized assessment or benchmark.

                        DRAFT - FOR REVIEW AND COMMENT PURPOSES ONLY
‚      What are the needs of utilities with regard to financial assistance, training, and procedural
       changes to improve security?

‚      What information can be collected and analyzed that would depict changes in security
       levels at water utilities?

Although no response is required to this draft memorandum, if you would like to provide one,
please do so within 15 days. Your comments should address the factual accuracy of the
information in the memorandum and the related suggestions. If you are providing a response,
please e-mail an electronic version of your response to harris.jeffrey@epa.gov. We will issue
this memorandum without change in 15 days unless you provide comments. We plan to close the
final memorandum upon issuance since it does not contain recommendations.

This is a draft memorandum prepared by EPA’s Office of Inspector General. This draft is subject
to revision by the Office of Inspector General and, therefore, does not represent the final position
of the Office of Inspector General on the subjects reported. It is provided to you solely for the
purpose of obtaining your review and comments. You are not authorized to distribute or disclose
this draft or its contents, except that you may distribute it to other persons in your organization to
obtain their review and comments on the subjects reported.

If you or your staff have any questions, please call me at (202) 566-0831.




                     DRAFT - FOR REVIEW AND COMMENT PURPOSES ONLY
                                   Table of Contents


Sections
   Introduction . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
   Usefulness of Information Provided by EPA and Others to Water Utilities . . . . . . . . . . . . . . 5
   Improvements Needed to Secure Water Systems . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
   Performance Indicators that EPA Could Use to Measure Improvements
   in Water Security Levels . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14




Appendices
   A          Survey of Water Security . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16




                                                               Figures

  1:       Number of Utilities Surveyed . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
  2:       Satisfaction with Threat Information . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
  3:       Satisfaction with Detection Information . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
  4:       Satisfaction with Delay Information . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
  5:       Satisfaction with Response and Consequence Information . . . . . . . . . . . . . . . . . . 9
  6:       Satisfaction with Remote Access Information . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
  7:       Number of Utilities That Would Like Additional Information . . . . . . . . . . . . . . . . . . 11
  8:       Amount of Money Water Utilities Expect to Spend in the Next 12 Months
           on Security Improvements . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
  9:       How Water Utilities Plan to Pay for Security Improvements . . . . . . . . . . . . . . . . . 13
Introduction

Agencies overseeing efforts to enhance the security of the Nation’s drinking water infrastructure,
such as EPA, may benefit from the observations of water utilities participating in the DWG
survey regarding (1) the usefulness of water security information, (2) remaining security needs,
and (3) potential measures of security, to identify areas needing improvement. For example, the
survey shows that, while EPA and groups such as the American Water Works Association
(AWWA) provided useful information, the survey respondents most frequently listed consultants
hired by water utilities as providing useful information. This suggests a possible disadvantage to
smaller utilities, which are required to complete vulnerability assessments by June 2004 but,
unlike larger utilities, may not be able to afford a consultant. The combined results of the DWG
survey cannot be interpreted as representing conditions within the water industry or the Nation
because the results only represent the opinions of 16 water utilities that volunteered to respond to
the survey and do not represent all water utilities.

In addition, all the utilities surveyed had concerns for water security including: additional
information regarding vulnerabilities; financing security improvements; training assistance;
research; and procedural changes. For example, the Water Information Sharing and Analysis
Center (Water-ISAC)2 could provide utilities useful threat information, but Water-ISAC is not
available without a subscription fee. Survey respondents also stated that they needed financial
assistance to make necessary security enhancements, training exercises to prepare for actual
events, and research to detect contaminants in the distribution system.

The survey found that the following performance indicators could be used to measure changes in
water security levels:

1.      Length of time a water utility could provide water during or after a security incident.
2.      Detection and response times.
3.      Ability to detect contaminants in the water system.
4.      Ability to detect attempted intrusions into the remote access system, commonly known as
        the Supervisory Control and Data Acquisition (SCADA) system.

Background

The Nation’s water supply is one of our most vital natural resources. Potential threats to this
resource include contamination with biological, chemical, or radiological agents, or damage and
destruction of the water plant. Despite concerns from industry and Congress that the Federal
government should not require specific approaches for water security, and that solutions should

        2
           The Water-ISAC is an information service developed to provide the Nation’s drinking water systems with
a secure Web-based environment for early warning of potential threats and a source of knowledge about water
system security. Water-ISAC analysts produce and disseminate physical and cyber security information to the water
sector relying on information gathered from Federal intelligence, law enforcement, public health and environment
agencies and utility security incident reports. The Water-ISAC was developed with funding from EPA, and is
available to water utilities on a subscription fee basis.

                       DRAFT - FOR REVIEW AND COMMENT PURPOSES ONLY
                                                        1
be developed by local water utilities themselves, EPA plays an important role in the security of
the Nation’s water supply. Presidential Decision Directive 63, issued in May 1998, designated
EPA as the lead agency for assuring the protection of the Nation’s water infrastructure. The
terrorist attacks on September 11, 2001 resulted in passage of the Bioterrorism Act and its
requirement that water utilities conduct vulnerability assessments.3

Vulnerability assessments help water systems evaluate susceptibility to potential threats and
design response plans and corrective actions to lessen the risk of serious consequences.
Vulnerability assessments help determine how well water systems detect security problems and
stop or delay undesired events, as well as measure response capabilities.

EPA developed a Strategic Plan for Homeland Security (“Plan”), dated September 2002, which
states that EPA will work with the States, tribes, drinking water utilities, and other partners to
enhance the security of water utilities. The Plan articulates tactics to execute the Plan which
include the provision of tools, training, and technical assistance to help water utilities’ conduct
vulnerability assessments, implement security improvements, and effectively respond to terrorist
events.

Scope and Methodology

To learn about the usefulness of information water utilities received from EPA and other Federal,
State, and local agencies, the DWG developed, pre-tested, and administered a Survey of Water
Security (see Appendix A). We conducted our review in accordance with Government Auditing
Standards, issued by the Comptroller General of the United States. Each DWG auditor
administered the survey to their local water utility,4 and the EPA Office of Inspector General
compiled the individual surveys and summarized the results in this report. Due to concerns about
releasing sensitive water utility information under a Freedom of Information Act request, the
DWG participants made an overt choice not to inquire about specific sensitive vulnerability
information. Six of the 22 water utilities who volunteered decided not to participate in the
survey due to concerns regarding the release of information to the public.

Water utilities have a number of information sources available to assist them in conducting a
vulnerability assessment. We asked utilities to provide an assessment of the usefulness of the
information obtained from the following sources:



        3
           The Bioterrorism Act required that water utilities serving a population greater than 3,300 persons conduct
vulnerability assessments according to a utility’s size. Water utilities serving 100,000 or more users had to conduct
their assessments by March 31, 2003; mid-sized utilities serving between 50,000 and 99,999 users must conduct their
assessments by December 31, 2003; and small utilities serving between 3,300 and 49,999 users must conduct their
assessments by June 30, 2004.
        4
         Six separate auditors conducted surveys at six different water utilities; the seven New York surveys were
conducted by one auditor; two of the California surveys were conducted by one auditor; and one water utility
volunteered to provide survey information, for a total of 16 surveys.

                        DRAFT - FOR REVIEW AND COMMENT PURPOSES ONLY
                                                         2
             Environmental Protection Agency (EPA)             Water Information Sharing and Analysis
                                                               Center (Water-ISAC)

             Federal Bureau of Investigation (FBI)             InfraGard5

             Department of Homeland Security (DHS)             National Rural Water Association
                                                               (NRWA)

             Centers for Disease Control and                   American Water Works Association
             Prevention (CDC)                                  (AWWA)

             Other Federal Agencies                            Water Consultant Hired by Utility

             State Agencies                                    Water Security Expert

             Local Law Enforcement




The survey requested information from water utilities in the following areas:

•        Usefulness of information obtained from EPA and other Federal, State and local
         agencies to conduct vulnerability assessments. Respondents were asked to rate their
         satisfaction on a scale of “1” (Not Very Useful) to “5” (Very Useful).

•        Resources and training needed by water utilities. Respondents were asked to provide
         needed information and resources to better improve the security of their water systems
         from terrorist attack.

•        Data and performance measures that could track changes in water security levels.
         Respondents were asked to provide suggestions for these measures.

Limitations of the Survey

It is important to note that the survey results represent only the opinions of 16 water utilities,
including seven from the State of New York, that volunteered to respond to the survey and
should not be generalized to represent all water utilities nationally. We analyzed the survey data
and did not find that the seven utilities from New York State provided similar responses which
would have disproportionately influenced the results. In addition, the performance indicators


         5
         InfraGard is an information sharing and analysis effort led by the FBI and an association of businesses,
academic institutions, and State and local law enforcement agencies. InfraGard provides private sector infrastructure
owners and operators information about cyber intrusions, exploited vulnerabilities, and infrastructure threats.

                         DRAFT - FOR REVIEW AND COMMENT PURPOSES ONLY
                                                         3
suggested may not be comprehensive since they are based on a sample of utilities that may not
have experience with performance measurement and may have been influenced by the examples
in the survey. While the survey results are limited to 16 utilities, we believe the information
presented in this report could help EPA, other agencies, and water utilities focus their efforts on
the security issues identified. Also, the survey responses are of particular interest to the local and
State DWG auditors who administered the survey and may have oversight responsibilities for
their local water utilities. It is not our intention to critique the judgments of individual water
utilities or sources who provided the information.

Characteristics of the Survey Population

The 16 water utilities surveyed in six States identified in Figure 1 represent various geographical
areas, size of populations served, and stages in the vulnerability and emergency response process.

The utilities surveyed ranged in the size of populations served. Four utilities surveyed serve
small populations of 3,300 - 99,999 users while 12 utilities surveyed serve large populations of
greater than 100,000 users.

Of the 16 utilities surveyed, 14 have completed the vulnerability assessment process, and 15 used
consultants to assist in the preparation of vulnerability assessments. The remaining utility was
the smallest survey respondent and the superintendent of its water plant conducted the
vulnerability assessment. Six of the utilities have also completed their emergency response
plans. Only one of the utilities has completed implementing its security enhancements.

                               Figure 1: Number of Utilities Surveyed




                    1                                    1

                                                                        7




                3                                                               2




                                                                            2




                        DRAFT - FOR REVIEW AND COMMENT PURPOSES ONLY
                                                  4
Usefulness of Information Provided by EPA and Others to Water Utilities

The survey shows that a variety of sources provided useful information to help water utilities
prepare vulnerability assessments. Utilities cited consultants hired to assist in the preparation of
vulnerability assessments most frequently as sources that provided useful information. Small
utilities required to complete vulnerability assessments by June 30, 2004 may not be able to hire
consultants and could be disadvantaged. Utilities also cited other sources such as EPA, AWWA,
Water-ISAC, and local law enforcement as providing useful information. However, the survey
results show that utilities did not always obtain information from all possible sources.

As we reported in EPA Needs to Assess the Quality of Vulnerability Assessments Related to the
Security of the Nation’s Water Supply (Report No. 2003-M-00013), dated September 24, 2003,
the vulnerability assessment is a threat-driven process. EPA is responsible for providing
adequate threat information to water utilities in order to prepare vulnerability assessments. EPA
did this through a variety of methods. First, EPA provided $53 million toward grants to the
largest water utilities. Utilities primarily used the grants to hire water security consultants to
assist in conducting vulnerability assessments. EPA also provided $21 million in grants to
provide drinking water security training to medium and small water utilities. Further, EPA
utilized the Water-ISAC and the AWWA to provide threat information to water utilities.
According to the Bioterrorism Act, however, the responsibility for determining which threats to
protect against ultimately resides with each water utility.

We identified five key security activities or capabilities critiqued through the vulnerability
assessment process.


  •      Threat Identification
  •      Detection
  •      Delay
  •      Response and Consequence
  •      Remote Access



The first step in the vulnerability assessment process is threat identification. Threat information
is necessary to identify potential scenarios against which utilities should prepare. For example,
security preparations may differ for internal threats from disgruntled employees versus external
threats from vandals or terrorists. The next step in the vulnerability assessment process
determines how well a utility can detect a problem. This includes reviewing security and
monitoring features; for example, how quickly a utility discovered a contaminant in the
distribution system. The third step measures the delay system. This involves an examination of
barriers such as gates, fences, locks, and walls. The next step measures response capabilities by
reviewing the capacity of local, State, and Federal authorities to respond and neutralize the
adversary. Another step for some utilities is to examine the remote access system, commonly
known as the SCADA system. This involves assessing the computer system to determine the
ease at which someone could control the utility remotely.


                     DRAFT - FOR REVIEW AND COMMENT PURPOSES ONLY
                                                 5
The following sections provide detailed information from the survey results on the usefulness of
the information provided to water utilities. Differences between the number of responses and
total number of utilities indicate that some utilities did not receive information from that source.
Two of the water utilities most frequently responded “not useful” or “not very useful” about the
information they obtained from EPA and other sources.

Many Sources Provided Useful Threat Information

The survey shows that a variety of sources provided useful threat information to help water
utilities prepare vulnerability assessments. The survey shows that respondents most frequently
cited consultants hired by water utilities and EPA as providing useful threat information. Of the
16 water utilities surveyed, 13 responded favorably about information obtained from consultants
they hired, including five utilities that described the information they received as “very useful.”
In addition, 12 of the 16 utilities responded that EPA provided useful threat information.
According to respondents, other sources of useful threat information included the Water-ISAC,
AWWA, water security experts, and local law enforcement agencies.

                                                         Figure 2: Satisfaction with Threat Information




                                           Not Very Useful               Not Useful       Neutral   Useful           Very Useful
     Number of Utilities (16)




                                16
                                14
                                12
                                10
                                 8
                                 6
                                 4
                                 2
                                 0
                                                                                                        A


                                                                                                                                   A
                                                    S




                                                                                            AC
                                       A




                                                                C
                                              I




                                                                                             cy




                                                                                              d




                                                                                                                                         er
                                                                                               t




                                                                                                                                  nt


                                                                                                                                  rt
                                                                                              y
                                            FB




                                                                                            en




                                                                                                     W
                                                                                            ar




                                                                                                                                W
                                                    H
                                     EP




                                                               D




                                                                                                                               pe
                                                                                           nc




                                                                                                                              lta




                                                                                                                                       th
                                                                                          en
                                                   D




                                                                                         -IS
                                                           C




                                                                                        em




                                                                                          G


                                                                                                    R

                                                                                                            AW




                                                                                                                                       O
                                                                                        ge




                                                                                                                           Ex
                                                                                                                           su
                                                                                      Ag




                                                                                                    N
                                                                                      fra
                                                                                      er
                                                                                     rc
                                                                    lA




                                                                                                                       on


                                                                                                                         y
                                                                                   In
                                                                                   at
                                                                                    e


                                                                                  fo




                                                                                                                      rit
                                                                  ra




                                                                                                                      C
                                                                                 at




                                                                               W
                                                                              En




                                                                                                                    cu
                                                               de


                                                                              St




                                                                                                                  Se
                                                                           aw
                                                          Fe




                                                                                                               er
                                                                        lL
                                                          er




                                                                                                             at
                                                                      ca
                                                        th




                                                                                                                 W
                                                    O




                                                                    Lo




 EPA - Environmental Protection Agency
 FBI - Federal Bureau of Investigation
 DHS - Department of Homeland Security
 CDC - Centers for Disease Control and Prevention
 NRWA - National Rural Water Association
 AWWA - American Water Works Association




                                                  DRAFT - FOR REVIEW AND COMMENT PURPOSES ONLY
                                                                                      6
Consultants Provided Useful Detection Information

The survey responses show that, of the sources that provided detection information to water
utilities, respondents most frequently cited consultants hired by water utilities as providing useful
detection information. Of the 16 water utilities, 13 responded favorably about information
obtained from consultants they hired, including five utilities that described the information they
received as “very useful.” In addition to consultants, the AWWA, local law enforcement, Water-
ISAC, and EPA also provided useful detection information for five to seven of the utilities.

                                                   Figure 3: Satisfaction with Detection Information



                                               Not Very Useful                        Not Useful    Neutral          Useful      Very Useful

                              16

                              14
   Number of Utilities (16)




                              12

                              10

                               8

                               6

                               4

                               2

                               0
                                                            C




                                                                                                                 d
                                          I


                                               S




                                                                                                                                                             er
                                                                                                                       A
                                     A




                                                                                                                                                     nt
                                                                                                  AC
                                         FB




                                                                                                                                                     A
                                                                                                    t
                                                                                    cy
                                                                          y




                                                                                                               ar




                                                                                                                                                    rt
                                                                                                  en
                                               H



                                                        D




                                                                                                                      W
                                   EP




                                                                                                                             W
                                                                      nc




                                                                                                                                                           th
                                                                                                                                                  ta


                                                                                                                                                 pe
                                              D



                                                       C




                                                                                                             G
                                                                                  en




                                                                                               -IS




                                                                                                                      R
                                                                                             em




                                                                                                                                                          O
                                                                                                                                                ul
                                                                                                                           AW
                                                                     ge




                                                                                                         fra




                                                                                                                                              Ex
                                                                                                                     N
                                                                               Ag




                                                                                                                                             ns
                                                                                            er
                                                                 lA




                                                                                          rc




                                                                                                        In




                                                                                                                                            o
                                                                                         at




                                                                                                                                           y
                                                                                        fo
                                                                              e




                                                                                                                                         C
                                                                ra




                                                                                                                                        rit
                                                                           at




                                                                                       W
                                                                                      En




                                                                                                                                      cu
                                                            de


                                                                          St




                                                                                                                                    Se
                                                        Fe




                                                                                    w
                                                                                  La




                                                                                                                                 er
                                                       er




                                                                                  l




                                                                                                                              at
                                                   th




                                                                                ca




                                                                                                                                  W
                                                   O




                                                                              Lo




                                              DRAFT - FOR REVIEW AND COMMENT PURPOSES ONLY
                                                                                             7
Consultants and the AWWA Provided Useful Delay Information

The survey responses show that, of the sources that provided delay information, respondents
most frequently cited consultants hired by water utilities and the AWWA as providing useful
delay information. Of the 16 surveys, 12 listed consultants hired by water utilities as having
useful information, including six utilities who ranked the information as “very useful.” In
addition to consultants, 10 utilities listed AWWA as having provided useful delay information.
Local law enforcement also provided useful delay information for six of the utilities.

                                                          Figure 4: Satisfaction with Delay Information



                                                 Not Very Useful                     Not Useful         Neutral        Useful       Very Useful

                              16

                              14
   Number of Utilities (16)




                              12

                              10

                               8

                               6

                               4

                               2

                               0
                                                                                                                   d
                                                            C
                                            I


                                                  S




                                                                                                                                                             er
                                                                                                                          A
                                      A




                                                                                                                                           nt
                                                                                                      AC
                                          FB




                                                                                                                                A
                                                                                                        t
                                                                                     y
                                                                      cy




                                                                                                                 ar
                                                                                                      en




                                                                                                                                                    rt
                                                 H



                                                           D




                                                                                                                         W
                                   EP




                                                                                   c




                                                                                                                                W




                                                                                                                                                          th
                                                                                                                                       lta



                                                                                                                                                  pe
                                                                                                                  G
                                                                                en
                                                D



                                                          C


                                                                    en




                                                                                                   -IS




                                                                                                                        R
                                                                                         em




                                                                                                                                                         O
                                                                                                                              AW



                                                                                                                                       su
                                                                                                              fra




                                                                                                                                                Ex
                                                                                                                       N
                                                                             Ag
                                                                  Ag




                                                                                                 er
                                                                                         rc




                                                                                                                                     on
                                                                                                            In
                                                                                               at




                                                                                                                                                 y
                                                                                       fo
                                                                            e
                                                                   l




                                                                                                                                    C
                                                                ra




                                                                                                                                              rit
                                                                          at




                                                                                              W
                                                                                     En




                                                                                                                                           cu
                                                              de


                                                                       St




                                                                                                                                        Se
                                                            Fe




                                                                                  w
                                                                                La




                                                                                                                                       er
                                                         er




                                                                                 l




                                                                                                                                     at
                                                      th




                                                                              ca




                                                                                                                                    W
                                                      O




                                                                           Lo




                                                DRAFT - FOR REVIEW AND COMMENT PURPOSES ONLY
                                                                                                8
Consultants and the AWWA Provided Useful Response and Consequence Information

The survey responses show that, of the sources that provided response and consequence
mitigation information, respondents most frequently cited consultants hired by water utilities and
the AWWA as providing useful response and consequence information. Of the 16 surveys, 11
listed consultants hired by water utilities as having useful information, including five utilities
who ranked the information as “very useful.” In addition to consultants, nine utilities listed
AWWA as providing useful response and consequence information. State agencies also
provided useful response and consequence information for six of the utilities.

                                         Figure 5: Satisfaction with Response and Consequence Information



                                                Not Very Useful                      Not Useful   Neutral       Useful       Very Useful

                              16

                              14
   Number of Utilities (16)




                              12

                              10

                               8

                               6

                               4

                               2

                               0
                                                                                                                A
                                                    S
                                     A




                                                                                                                         A
                                            I




                                                                C




                                                                                                AC




                                                                                                                                                      er
                                                                                                   d
                                                                                                   y




                                                                                                                                  nt
                                                                                                   t




                                                                                                                                              rt
                                         FB




                                                                          cy




                                                                                                en




                                                                                                                W
                                                                                                nc
                                                H
                                   EP




                                                                                                                      W
                                                                                                ar
                                                               D




                                                                                                                                           pe


                                                                                                                                                    th
                                                                                                                                 lta
                                                D




                                                                        en




                                                                                             -IS
                                                           C




                                                                                              G


                                                                                                            R

                                                                                                                    AW
                                                                                            em
                                                                                     e




                                                                                                                                                   O
                                                                                                                                         Ex
                                                                                                                               su
                                                                                  Ag




                                                                                                            N
                                                                                          fra
                                                                      Ag




                                                                                         er
                                                                                        rc




                                                                                                                             on


                                                                                                                                        ity
                                                                                       In
                                                                                       at
                                                                                e


                                                                                      fo
                                                                      l




                                                                                                                          C
                                                                   ra


                                                                             at




                                                                                     W




                                                                                                                                     ur
                                                                                    En
                                                                  e


                                                                          St




                                                                                                                                  ec
                                                               ed




                                                                                   aw




                                                                                                                                   S
                                                          rF




                                                                                                                                er
                                                                                 lL
                                                           e




                                                                                                                             at
                                                                               ca
                                                        th




                                                                                                                          W
                                                    O




                                                                             Lo




                                                DRAFT - FOR REVIEW AND COMMENT PURPOSES ONLY
                                                                                           9
Consultants Provided Useful Remote Access Information

Many utilities use a remote access system, commonly known as SCADA, to control operations.
The survey responses show that, of the sources that provided SCADA information, respondents
most frequently cited consultants hired by water utilities as providing useful SCADA
information. Of the 15 surveys,6 11 listed consultants hired by the water utilities as having useful
information, including three utilities who ranked the information as “very useful.” In addition to
consultants, six utilities listed AWWA and five utilities listed Water-ISAC as providing useful
SCADA information.

                                                     Figure 6: Satisfaction with Remote Access Information



                                               Not Very Useful                 Not Useful            Neutral       Useful        Very Useful

                               15
    Number of Utilities (15)




                               12

                                   9

                                   6

                                   3

                                   0
                                          A




                                                                                                                      A


                                                                                                                             A
                                                     HS




                                                                                                     AC
                                                I




                                                              C




                                                                                                                                                        er
                                                                                                               d
                                                                                   y




                                                                                                                                        nt
                                                                                                      t




                                                                                                                                                 rt
                                              FB




                                                                        y




                                                                                             en




                                                                                                                            W
                                                                                                                     W
                                                                                 nc




                                                                                                             ar
                                       EP




                                                            CD




                                                                                                                                                pe
                                                                      nc




                                                                                                                                     lta




                                                                                                                                                       th
                                                    D




                                                                                                 - IS


                                                                                                            G

                                                                                                                   NR


                                                                                                                          AW
                                                                                           m
                                                                                  e




                                                                                                                                                      O
                                                                    ge




                                                                                                                                              Ex
                                                                                                                                  su
                                                                               Ag




                                                                                                          fra
                                                                                         ce


                                                                                               er
                                                                   lA




                                                                                                                                on


                                                                                                                                         ity
                                                                                        or




                                                                                                       In
                                                                                                at
                                                                          te
                                                                 ra




                                                                                                                               C
                                                                                         f

                                                                                               W




                                                                                                                                          r
                                                                           a

                                                                                      En




                                                                                                                                       cu
                                                               e


                                                                        St
                                                            ed




                                                                                                                                     Se
                                                                                aw
                                                             F




                                                                                                                                 er
                                                                            lL
                                                          er




                                                                                                                                at
                                                                          ca
                                                       th




                                                                                                                               W
                                                      O




                                                                        Lo




Improvements Needed to Secure Water Systems

EPA’s Strategic Plan focuses on preparedness and prevention, assisting those responsible for
critical infrastructures in assessing and reducing vulnerabilities and maximizing their response
capabilities. EPA also intends to develop technologies to improve the Nation’s critical
infrastructure and key responders’ abilities to detect and monitor environmental threats. The
survey asked questions to help determine utilities’ technological needs. All the utilities surveyed
had concerns for water security described in more detail below. The concerns include:



                               6
                                One utility did not have a SCADA system.

                                                    DRAFT - FOR REVIEW AND COMMENT PURPOSES ONLY
                                                                                               10
•                                         additional information regarding vulnerabilities;
•                                         financing security improvements;
•                                         training assistance;
•                                         research; and
•                                         procedural changes.

Additional Information Needed by Utilities

The survey results show that water utilities still have a need for more information regarding
threats, detection assistance, delay, response and consequence mitigation, and SCADA (see
Figure 7).

                                                  Figure 7: Number of Utilities That Would Like Additional Information


                                     16

                                                                                   Some        A Lot

                                     14




                                     12
    Number of Utilities (Total 16)




                                     10




                                     8




                                     6




                                     4




                                     2




                                     0

                                           Threat Information   Detection Assistance           Delay   Response          SCADA




EPA funded the Water-ISAC to promote information sharing on water security. The Water-
ISAC claims to provide information to water utilities that serve 80 percent of all drinking water
customers. Five of the utilities in our survey, however, responded that they want better access to
threat information, including access to the Water-ISAC database which is only available on a
subscription fee basis. In addition, four utilities (including two medium sized utilities) did not
obtain threat information from the Water-ISAC. We do not know why the utilities did not obtain
threat information from the Water-ISAC.

                                                        DRAFT - FOR REVIEW AND COMMENT PURPOSES ONLY
                                                                                          11
                      Financial Assistance Needed by Utilities

                      Utilities stated that they need financial assistance to make necessary security improvements. 11
                      of the 16 water utilities estimated that they would spend more than $100,000 during the next 12
                      months on water security improvements, including four utilities who are planning to spend more
                      than $1 million (see Figure 8).


                        Figure 8: Amount of Money Water Utilities Expect to Spend in the Next 12 Months on Security
                                                              Improvements


                        7



                        6



                        5
Number of Utilities




                        4



                        3



                        2



                        1



                        0
                                <10            10-49             50-99          100-499    500-999         >1,000

                                                                 Dollars in Thousands




                                          DRAFT - FOR REVIEW AND COMMENT PURPOSES ONLY
                                                                         12
Of the 16 utilities, 11 stated that they may limit security improvements to those that they can
afford and/or budget as capital improvement projects. Several utilities stated that they would
issue bonds or raise water rates to cover the costs of security improvements (see Figure 9).


                                                 Figure 9: How Water Utilities Plan to Pay for Security Improvements7

                                     16




                                     14




                                     12
    Number of Responses (16 Total)




                                     10




                                      8




                                      6




                                      4




                                      2




                                      0
                                             Financial     EPA Drinking State Financial   Increase Water   Issue Water         Limit      Future Capital   Other
                                          Assistance from  Water State    Assistance           Rates       Utility Bonds   Improvements   Improvements
                                                EPA       Revolving Fund




Seven of the 16 utilities responded that they needed financial assistance. EPA’s financial
assistance, however, has been limited to ensuring that drinking water utilities receive technical
assistance and training on vulnerability assessments and emergency response plans, but not
funding for the improvements themselves. Three utilities indicated that they plan to use EPA’s
Drinking Water State Revolving Fund to help pay for security improvements. It is unknown
whether the 13 utilities who are not planning on using the Drinking Water State Revolving Fund
realize that they can use the fund to provide assistance for implementing infrastructure-related
security measures.




                                     7
                                      The survey allowed respondents to check more than one answer.


                                                         DRAFT - FOR REVIEW AND COMMENT PURPOSES ONLY
                                                                                                  13
Training Needs

Of the 16 utilities, 14 described additional training that their employees needed to improve
security. The training needs ranged from general seminars on security awareness to specific
training such as crime scene preservation. Of the 16 utilities, 14 stated that they needed
additional training in emergency response, including identifying and detecting threats. Four of
the utilities stated that they wanted to conduct training exercises or drills to help them prepare for
actual security events.

Research Needs

Twelve utilities stated that they would like EPA to fund research on monitoring and detecting
contaminants. The utilities stated that they would like to have real-time monitoring of water
systems to detect chemical and biological agents, particularly in the distribution system, which
many experts view as the most susceptible to terrorist attack.

Procedural Changes Needed

Eight survey respondents stated that they would like to see specific procedural changes made to
improve security, while six stated that they did not want any changes. Since there was no
consensus about changes needed, the following list reflects the respondents’ suggestions,
including those that would likely be addressed by State or local authorities:

•      Include security practices as part of water operations certification training.
•      Provide a time frame for renewing vulnerability assessments.
•      Change the rules governing the awarding and uses of Drinking Water State Revolving
       Fund loans and grants.
•      Establish security standards for water utilities.
•      Modify the Freedom of Information Act to protect sensitive information about water
       facilities.
•      Improve the ability to conduct background checks on employees.
•      Provide additional State police to respond to malevolent acts.

Performance Indicators that EPA Could Use to Measure
Improvements in Water Security Levels

In our report EPA Needs a Better Strategy to Measure Changes in the Security of the Nation’s
Water Infrastructure (Report No. 2003-M-00016), dated September 11, 2003, we suggested that
EPA develop performance indicators to measure changes in water security. EPA stated that they
would welcome recommendations and assistance in this area. In our survey, we asked water
utilities to respond to questions about performance indicators that could be used to measure
changes in water security. We used the input from the survey to develop the following
performance indicators which could be used to measure changes in water security levels.



                     DRAFT - FOR REVIEW AND COMMENT PURPOSES ONLY
                                                 14
         Length of time a water utility could provide water during or after a security incident

         Eleven of the utilities mentioned this type of performance indicator. This
         indicator would incorporate improvements made by water utilities such as
         adding storage facilities, interconnections, and emergency backup power
         sources.

         Detection and response times

         Twelve utilities mentioned this performance indicator. Exercises could be
         performed at water utilities with a variety of threat scenarios to determine the
         length of time to detect and respond to threats. The drills could also be used
         to determine whether utility employees utilized appropriate response
         procedures.

         Ability to detect contaminants in water system

         Ten utilities mentioned this performance indicator. Detection is critical for a
         water utility to adequately respond to threats. Utilities also suggested
         measuring the number of contaminants or the timeliness of detecting
         particular contaminants in the water system. Tests could also monitor the
         timeliness of the laboratory used by the utility to identify contaminants.

         Ability to detect attempted intrusions into the SCADA system

         Seven utilities mentioned this performance indicator. Water utilities could
         document the number of attempted intrusions into their SCADA systems to
         track the level of interest in the water system.



Suggestions

Based on the survey results and our observations, we offer the following suggestions:

       (1)     Ensure that small utilities have access to security information that large utilities
               received from consultants funded by EPA, possibly by fully funding the Water-
               ISAC, and provide lists of other agencies from which utilities could obtain
               information.

       (2)     Ensure that water utilities have access to information on funding security
               enhancements, including use of the Drinking Water State Revolving Fund.

       (3)     Consider using the performance indicators discussed above to set a baseline for
               water security and measure improvements over time, particularly through the use
               of exercises and drills to test the security of water utilities.

                    DRAFT - FOR REVIEW AND COMMENT PURPOSES ONLY
                                                 15
                                           Survey of Water Security                     Appendix A

The following series of questions deal with information or guidance the drinking water utility
received, and its usefulness in preparing for a vulnerability assessment.

1. Threats – In order to conduct a vulnerability assessment, a utility needs to determine or
   evaluate potential threats, often referred to as a design basis threat. The design basis threat is
   based on understanding the motives, intentions, and capabilities of the utility’s adversaries.

   Below are a list of sources from which your drinking water utility may have received
   information or guidance on THREATS. Please rate the usefulness of the information you
   received on a scale from one to five, where one is not at all useful and five is very useful. If
   you did not receive information from a listed source, please check that box.
                                                                  Not           Very
                                                                  useful       useful     Did not
                                                                                           receive
 Sources of Threat Information (check all that apply)             1*   2   3   4   5*   information

 Environmental Protection Agency (EPA)

 Federal Bureau of Investigation (FBI)

 Department of Homeland Security

 Centers for Disease Control (CDC)

 Other Federal agency
 Please specify

 State agency
 Please specify

 Local law enforcement (Police, Sheriff)

 Water Information Sharing and Analysis Center (Water-ISAC)

 InfraGard

 National Rural Water Association (NRWA)

 American Water Works Association (AWWA)

 Consultant hired to prepare vulnerability assessment

 Water security expert

 Other – Please specify
* provide explanation for answers with either 1 (not at all useful) or 5 (very useful)




                          DRAFT - FOR REVIEW AND COMMENT PURPOSES ONLY
                                                        16
2. Detection – Detection (1) senses an act of aggression, (2) assesses the validity of the
   detection, and (3) communicates the appropriate information to a response force. A detection
   system must provide all three of these capabilities to be effective. A detection system may
   consist of closed-circuit television, cameras, motion sensors, alarms, door or window sensors,
   and chemical and biological monitoring and detection technologies.

   Below are a list of sources from which your drinking water utility may have received
   information or guidance on DETECTION. Please rate the usefulness of the information you
   received on a scale from one to five, where one is not at all useful and five is very useful. If
   you did not receive information from a listed source, please check that box.
                                                              Not             Very
                                                              useful         useful     Did not
 Sources of Detection Information (check all that                                        receive
 apply)                                                       1*   2    3    4   5*   information

 Environmental Protection Agency (EPA)

 Federal Bureau of Investigation (FBI)

 Department of Homeland Security

 Centers for Disease Control (CDC)

 Other Federal agency
 Please specify

 State agency
 Please specify

 Local law enforcement (Police, Sheriff)

 Water Information Sharing and Analysis Center (Water-ISAC)

 InfraGard

 National Rural Water Association (NRWA)

 American Water Works Association (AWWA)

 Consultant hired to prepare vulnerability assessment

 Water security expert

 Other – Please specify
* provide explanation for answers with either 1 (not at all useful) or 5 (very useful)




                          DRAFT - FOR REVIEW AND COMMENT PURPOSES ONLY
                                                        17
3. Delay – Delay is any mechanisms in place to delay the intruder, after detection, from
   damaging the utility or contaminating the water. Defensive measures protect an asset by
   delaying an adversary’s movement toward the asset or by shielding the water from
   contamination. Delay measures include such things as fencing, locks, and grates or bars on
   windows.

   Below are a list of sources from which your drinking water utility may have received
   information or guidance on DELAY. Please rate the usefulness of the information you
   received on a scale from one to five, where one is not at all useful and five is very useful. If
   you did not receive information from a listed source, please check that box.
                                                              Not              Very
                                                              useful          useful     Did not
                                                                                          receive
 Sources of Delay Information (check all that apply)          1*    2    3    4   5*   information

 Environmental Protection Agency (EPA)

 Federal Bureau of Investigation (FBI)

 Department of Homeland Security

 Centers for Disease Control (CDC)

 Other Federal agency
 Please specify

 State agency
 Please specify

 Local law enforcement (Police, Sheriff)

 Water Information Sharing and Analysis Center (Water-ISAC)

 InfraGard

 National Rural Water Association (NRWA)

 American Water Works Association (AWWA)

 Consultant hired to prepare vulnerability assessment

 Water security expert

 Other – Please specify
* provide explanation for answers with either 1 (not at all useful) or 5 (very useful)




                          DRAFT - FOR REVIEW AND COMMENT PURPOSES ONLY
                                                        18
4. Response/Consequence Mitigation – Consequences are outcomes that can happen if an
   adversary successfully carries out a threat. Consequences of a threat carried out on a water
   supply can affect the quantity and/or quality of water supplied, as well as general sanitation
   and safety issues in a community.

   Below are a list of sources from which your drinking water utility may have received
   information or guidance on RESPONSE/CONSEQUENCE MITIGATION. Please rate
   the usefulness of the information you received on a scale from one to five, where one is not at
   all useful and five is very useful. If you did not receive information from a listed source,
   please check that box.
                                                              Not             Very
                                                              useful         useful     Did not
 Sources of Response/Consequence Mitigation                                              receive
 Information (check all that apply)                           1*   2    3    4   5*   information

 Environmental Protection Agency (EPA)

 Federal Bureau of Investigation (FBI)

 Department of Homeland Security

 Centers for Disease Control (CDC)

 Other Federal agency
 Please specify

 State agency
 Please specify

 Local law enforcement (Police, Sheriff)

 Water Information Sharing and Analysis Center (Water-ISAC)

 InfraGard

 National Rural Water Association (NRWA)

 American Water Works Association (AWWA)

 Consultant hired to prepare vulnerability assessment

 Water security expert

 Other – Please specify
* provide explanation for answers with either 1 (not at all useful) or 5 (very useful)




                          DRAFT - FOR REVIEW AND COMMENT PURPOSES ONLY
                                                        19
5. Cyber – Water utility components are often controlled remotely by computer systems called
   Supervisory Control and Data Acquisition (SCADA). These SCADA systems are susceptible
   to attack by computer hackers who could shut down critical assets within the water utility.

   Below are a list of sources from which your drinking water utility may have received
   information or guidance on SCADA SECURITY. Please rate the usefulness of the
   information you received on a scale from one to five, where one is not at all useful and five is
   very useful. If you did not receive information from a listed source, please check that box.
                                                              Not             Very
                                                              useful         useful     Did not
 Sources of SCADA Security Information (check all                                        receive
 that apply)                                                  1*   2    3   4    5*   information

 Environmental Protection Agency (EPA)

 Federal Bureau of Investigation (FBI)

 Department of Homeland Security

 Centers for Disease Control (CDC)

 Other Federal agency
 Please specify

 State agency
 Please specify

 Local law enforcement (Police, Sheriff)

 Water Information Sharing and Analysis Center (Water-ISAC)

 InfraGard

 National Rural Water Association (NRWA)

 American Water Works Association (AWWA)

 Consultant hired to prepare vulnerability assessment

 Water security expert

 Other – Please specify
* provide explanation for answers with either 1 (not at all useful) or 5 (very useful)




                          DRAFT - FOR REVIEW AND COMMENT PURPOSES ONLY
                                                        20
Performance Measurement Information

6.   What performance indicators would best measure changes in the overall level of water
     security? (Some examples may include: length of time your water utility could supply
     water in the event of a disaster, length of time your water utility could operate on
     emergency backup power sources, amount of water storage your utility has).

      ___________________________________________________________________

      ___________________________________________________________________

      ___________________________________________________________________


7.   Should there be separate performance indicators that would measure changes for each
     component of the water utility (source water, treatment, storage, distribution)? What
     performance indicators would best measure these changes?

      ___________________________________________________________________

      ___________________________________________________________________

      ___________________________________________________________________


8.   What performance indicators would best measure changes in threat detection? (Some
     examples may include: number of contaminants your water utility can detect in the
     distribution system, amount of time it takes to determine whether a detection event is a real
     threat or false alarm).

      ___________________________________________________________________

      ___________________________________________________________________

      ___________________________________________________________________

9.   What performance indicators would best measure changes in adversary delay? (An
     example may include: amount of time the utility can delay threats compared to response
     time).

      ___________________________________________________________________

      ___________________________________________________________________

      ___________________________________________________________________

                   DRAFT - FOR REVIEW AND COMMENT PURPOSES ONLY
                                               21
10.   What performance indicators would best measure changes in response/consequence
      mitigation? (An example may include: number of employees that follow the proper
      response to specific threat scenarios in practice exercises)?

       ___________________________________________________________________

       ___________________________________________________________________

       ___________________________________________________________________


11.   What performance indicators would best measure changes in SCADA security systems?
      (An example may include: the number of attempts to hack into the system).

       ___________________________________________________________________

       ___________________________________________________________________

       ___________________________________________________________________




                   DRAFT - FOR REVIEW AND COMMENT PURPOSES ONLY
                                             22
Resource/Training Needs


12.   How much money does your utility expect to spend on security enhancements over the next
      12 months?
      ____ < $10,000
      ____ $10,000 - $50,000
      ____ $50,000 - $100,000
      ____ $100,000 - $500,000
      ____ $500,000 - $1,000,000
      ____ $1,000,000+
      ____ Don’t know

13.   By what means is your utility planning to pay for needed security enhancements?

                                                                                                         Don’t
                                                                                             Yes    No   Know
      a.    Financial assistance from EPA . . . . . . . . . . . . . . . . . . . 1                    2      3
      b.    EPA State Revolving Fund . . . . . . . . . . . . . . . . . . . . . . 1                   2      3
      c.    Financial assistance from the State . . . . . . . . . . . . . . . . 1                    2      3
      d.    Increase water rates . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1           2      3
      e.    Issue water utility bonds . . . . . . . . . . . . . . . . . . . . . . . . 1              2      3
      f.    Limit improvements to those which
            the utility can afford . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1        2      3
      g.    Budget for future Capitol Improvement projects . . . . . . 1                            2      3
      h.    Other . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1   2      3
            (Please specify _______________________)

14.   In which of the following areas do you need more assistance (check all that apply)?
                                                                                          Little Some A Lot
      a.   Threat information . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1          2    3
      b.   Detection assistance . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1          2    3
      c.   Delay . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1   2    3
      d.   Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1      2    3
      e.   SCADA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1       2    3

15.   What specific assistance do you need (if any)?

      ________________________________________________________________

      ________________________________________________________________




                         DRAFT - FOR REVIEW AND COMMENT PURPOSES ONLY
                                                                23
16.   Please describe the kinds of training employees at your facility need to improve security or
      response?

      ________________________________________________________________

      ________________________________________________________________

      ________________________________________________________________


17.   What kinds of regulatory changes (if any) does your utility need to help improve security?

      ________________________________________________________________

      ________________________________________________________________

      ________________________________________________________________


18.   What types of research (if any) would be most beneficial to improve security?

      ________________________________________________________________

      ________________________________________________________________

      ________________________________________________________________


19.   Do you have any additional comments or concerns regarding water security?

      ________________________________________________________________

      ________________________________________________________________




                    DRAFT - FOR REVIEW AND COMMENT PURPOSES ONLY
                                                24
Background Information

Utility Name:                     ____________________________________________________

20.   What is the population served by your utility?

      ____Less than 3,300
      ____3,300 - 50,000
      ____50,000 - 100,000
      ____100,000 - 1,000,000
      ____1,000,000 - 3,000,000
      ____3,000,000+

21.   Who performed the vulnerability assessment at your utility (check all that apply)?

      _____A consultant with expertise preparing a vulnerability assessment
      _____A security expert employed by the utility
      _____Other utility employee - please specify employee’s title _________________
      _____Someone else - please specify _____________________________________
      _____Don’t know


22.   Please indicate your utility’s current status in:

                                                                         Planning     Conducting Completed
      a.   Vulnerability assessment . . . . . . . . . . . . . . . . . . . . . . . 1        2        3
      b.   Emergency response plan . . . . . . . . . . . . . . . . . . . . . . 1           2        3
      c.   Implementing security improvements . . . . . . . . . . . . . 1                  2        3


23.   What tools and methods were used to conduct your drinking water utility’s vulnerability
      assessment (check all that apply)?

      _____Risk Assessment Methodology-Water (RAM-W)
      _____Vulnerability Self Assessment Tool (VSAT) software
      _____National Rural Water Association (NRWA) checklist
      _____Other - please specify_____________________________________________
      _____Don’t know

      THANK YOU FOR YOUR ASSISTANCE IN COMPLETING THIS SURVEY.




                      DRAFT - FOR REVIEW AND COMMENT PURPOSES ONLY
                                                       25
